APPENDIX 2

App. No. _____
Fritz v. Washoe County, Nevada
On Application for Extension of Time
to File a Petition for Writ of Certiorari
to the Supreme Court of Nevada

IN THE SUPREME COURT OF THE STATE OF NEVADA

JOHN FRITZ; AND MELISSA FRITZ,
Appellants,
vs.
WASHOE COUNTY,
Res ondent.

No. 75693

FILED
MAY 3 I 2019

ORDER OF AFFIRMANCE

ELIZABETH A. BROWN
CLERK OF SUPREME COURT
BY

5-Y~
DEPUTY CLERK f

This is an appeal from a district court judgment after a bench
trial in a real property action regarding an inverse condemnation claim.
Second Judicial District Court, Washoe County; Kathleen M. Drakulich,
Judge.
The property at issue in this dispute is a 2.5 acre parcel on
Bihler Road in unincorporated Washoe County that has periodically flooded
over the years.

The property is within the White's Creek watershed.

White's Creek bifurcates into four channels, two of which run consistently
and two of which run depending upon seasonal local precipitation and
runoff that flows during storm events.

One of the latter two channels,

White's Creek #4, runs through the southeast corner of the property.
John Fritz and Melissa Fritz purchased the property in 2001.
After purchasing it, they built a home, garage, and shop on the property.
Part of that construction included grading the property to accommodate the
structures and landscaping the area around the house. From 2002 until
2015, the Fritzes consistently rented the property to other tenants, and
received approximately $166,000 in rental income in those years. Since
they have owned the property, John has continued to use the shop for
storage of construction materials and used the southern side of the parcel

SUPREME COURT

o,
NEVAOA
(0) 194/A

~

for parking of trailers and vehicles. The Fritzes moved into the home in
2015, and still live there today.
The Fritzes first experienced flooding on their property in 2005.
A winter storm inundated the area and caused water to run through their
property. The water reached the shop on the property and placed several
inches of water, dirt, and soil in the garage. There was no damage to the
house; however, there was damage to the personal property stored in the
garage. Nevertheless, the Fritzes did not file an insurance claim for that
incident.

The Fritzes experienced some flooding again during a winter

storm in 2014. However, no evidence was introduced in the district court
regarding the impact of that flooding on the Fritzes' home, shop, or garage.
That said, there was evidence presented that water pooled in the
southeastern graded portion of the property. Then, in 2017, the Fritzes
experienced flooding again. Specifically, in that year, there were historic
amounts of precipitation and snow melt in the area, leading the federal
government to declare two flood disasters. Melissa took a video of that
event showing large amounts of water coming from the overflow of White's
Creek #4, heading north on Bihler Road, and flooding the property.
However, even with the historical amount of flooding in 2017, the Fritzes'
house, garage, and shop were not damaged during that event.
The Fritzes contend that all the flooding on the property was
the result of public improvements to two upland developments, Lancer
Estates and Monte Rosa, as well as improvements to upland Mount Rose
Highway. The Fritzes argue that improvements to those developments
have gradually increased over time as those developments expanded.
The Fritzes filed a complaint in the district court for inverse
condemnation, alleging that Washoe County substantially participated in
SUPREME COURT

o,
NEVADA
10) 1'147A

~

2

the planning and development of Lancer Estates and Monte Rosa, and that
those developments have substantially increased and accelerated the flow
of water across White's Creek #4. Initially, the district court dismissed the
Fritzes' claim by summary judgment.

The Fritzes appealed, and we

reversed, concluding that the district court's findings were insufficient to
determine if there was a taking, and that genuine issues of material fact
existed as to whether Washoe County actions constituted substantial
involvement in the development of the drainage system in that area. Fritz

v. Washoe Cty. ("Fritz I"), 132 Nev. 580, 586, 376 P.3d 794, 796 (2016).
After remand, the district court reopened discovery. The case
eventually proceeded to a three-day bench trial on the taking and proximate
cause elements of the inverse condemnation claim. The court concluded
that, as a matter of law, the flooding on the Fritzes' property did not rise to
the level of a taking, and that there were other factors other than those
involving Washoe County that caused the Fritzes' property to flood. The
Fritzes now appeal that determination.

The district court did not err in concluding there was not a taking
The Fritzes contend that the district court made clearly
erroneous findings of fact regarding the evidence of recurring flooding and
future flooding. 1

Washoe County responds that the Fritzes were not

1The

Fritzes contend that the district court erroneously determined
that no taking occurred because the district court applied the incorrect
standard of law. Specifically, the Fritzes complain that the district court
used the standard set forth in ASAP Storage, Inc. v. City of Sparks, 123 Nev.
639, 648, 173 P.3d 734, 741 (2007), when it should have used Buzz Stew,
LLC v. City of N. Las Vegas, 131 Nev. 1, 7, 341 P.3d 646, 650 (2015). As an
initial matter, Buzz Stew did not overturn, distinguish, or clarify the
standard used for a taking. 131 Nev. at 7, 341 P.3d at 650. In fact, the

SUPREME COURT

o,
NEVADA
(Ol !947A

~~

3

substantially injured, as required by Buzz Stew, because water pooling on a
property during a storm event is not substantial injury. We agree.
Inverse condemnation requires: "(1) a taking (2) of real or
personal interest in private property (3) for public use (4) without just
compensation being paid (5) that is proximately caused by a governmental
entity (6) that has not instituted formal proceedings." Fritz I, 132 Nev. at
584, 376 P.3d at 796. "Whether a taking has occurred is a question of law
that this court reviews de nova." City of Las Vegas v. Cliff Shadows Prof'l

Plaza, LLC, 129 Nev. 1, 11, 293 P.3d 860, 866 (2013). 2 Additionally, we
have "repeatedly held that findings of fact and conclusions of law, supported
by substantial evidence, will not be set aside unless clearly erroneous."

Sheehan & Sheehan v. Nelson Malley & Co., 121 Nev. 481, 486, 117 P.3d
219, 223 (2005) (internal quotation and citation omitted).
For a taking by flood water to occur, there must be a physical
invasion of flood waters resulting in substantial injury. Buzz Stew, 131 Nev.
at 7, 341 P.3d at 650. For substantial injury to exist, the physical invasion

supposed clarified standard the Fritzes rely on in Buzz Stew directly cites
to ASAP Storage and Clark County v. Powers, 96 Nev. 497, 501 n.3, 611 P.2d
1072, 1075 n.3 (1980). Id. The district court used both of those cases to
determine whether a taking occurred. Thus, the Fritzes' argument that the
district court applied an incorrect standard of law has no merit.
The Fritzes also argue that numerous other findings of fact by the
district court were clearly erroneous or not supported by substantial
evidence. However, each of the remaining findings they dispute relate to
the proximate cause element of the district court's decision, rather than the
taking element. Because we conclude the Fritzes failed to demonstrate a
taking occurred, we need not address those arguments.
2 Because

whether a taking occurred is a question of law, we reject the
Fritzes' contention that the case should have been tried by a jury.
SUPREME COURT
OF

NEVADA
(0)!94?A

~

4

must "effectually destroy or impair [the property's] usefulness." Clark Cty.,
96 Nev. at 501 n.3, 611 P.2d at 1075 n.3. "[W]hen property is subjected to
intermittent, but inevitable flooding which causes substantial injury," the
requirement is no different. Id.
We conclude that the district court correctly determined that
there was no taking. Since the Fritzes bought the property, it has only
flooded three times and none of those times resulted in substantial damage
sufficient to destroy or impair the property's usefulness. Only once did the
flooding invade the garage that John used for storage of his personal
property, and he has continued to use the building for that same purpose
since. The flooding has merely resulted in erosion and channeling in a
graded area of the property away from the house, shop, and garage.
Further, the Fritzes have been able to lease the property out to various
tenants since they have owned the property, generating just over $160,000
in revenue. The Fritzes moved back onto the property in 2015 and continue
to reside there today. Thus, the district court was correct in concluding that
the flooding did not result in substantial injury to the Fritzes.
We additionally conclude that the district court's finding
regarding future flooding on the property was not clearly erroneous. The
Fritzes argue that their expert presented evidence that flooding will
continue and increase the more urbanization of that area increases.
However, the evidence of future flooding was scant and speculative,
particularly when coupled with evidence that the property has only flooded
three times in roughly twenty years, none of which resulted in substantial

SUPREME COURT

o,
NEVADA
(()) 1947A

~

5

damage. Given the evidence available, the district court's finding does not
rise to clear error. Accordingly, the district court did not err in holding that
no taking occurred. We thus

ORDER the judgment of the district court AFFIRMED. 3

Ae-1cu.
Pickering

7

Q,.-10. =--

J.

J.

Parraguirre U

J.
Cadish

cc:

Hon. Kathleen M. Drakulich, District Judge
David W asick, Settlement Judge
Luke A. Busby
Washoe County District Attorney/Civil Division
Fennemore Craig P.C./Reno
Blanchard, Krasner & French
Washoe County District Court Clerk

3We

have considered the Fritzes' remaining arguments and conclude
they are without merit.
SUPREME COURT
OF

NEVAOA

(0)

1947A•~

6

